APPENDIX TABLE OF CONTENTS
Opinion of the United States Court of Appeals for
the Eleventh Circuit (April 2, 2019)................. la
Order of the United States District Court for the
Northern District of Georgia (July 17, 2018).... 4a
Judgment of the United States District Court for
the Northern District of Georgia
(July 18, 2018)
10a

App.la
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT
(APRIL 2, 2019)
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ANDREW CLARKE,
Plain tiff-Appellan t,
v.
RUSSELL R. MCMURRY, P.E.,
Commissioner of the Georgia D.O.T.,
i

Defendant-Appellee.

No. 18-13446
D.C. Docket No. l:18-cv-01507-TCB
Appeal from the United States District Court
for the Northern District of Georgia
Before: Ed CARNES, Chief Judge, BRANCH, and
Julie CARNES, Circuit Judges.
PER CURIAM:
Andrew Clarke appeals the district court’s dis­
missal of his 42 U.S.C. § 1983 complaint. The complaint
alleges that Russel McMurry, the Commissioner of
the Georgia Department of Transportation, violated
the Fourteenth Amendment’s Equal Protection and
Due Process Clauses by failing to ensure that the

App.2a

Department reimburse Clarke, a former Department
employee, for paying medical bills that he incurred after
an on-the-job traffic accident. Clarke sued McMurry in
his official capacity and sought $10,000,000 in damages.
The district court dismissed the complaint on the basis
of Eleventh Amendment sovereign immunity. This is
Clarke’s appeal.
We construe liberally Clarke’s complaint because
he is proceeding pro se, Winthrop-Redin v. United
States, 767 F.3d 1210, 1215 (llth Cir. 2014), and we
review de novo the district court’s dismissal of Clarke’s
complaint, Harbert Int% Inc. v. Janies, 157 F.3d 1271,
1277 (llth Cir. 1998).
The Eleventh Amendment provides:
The Judicial power of the United States shall
not be construed to extend to any suit in law
or equity, commenced or prosecuted against
one of the United States by Citizens of
another State, or by Citizens or Subjects of
any Foreign State.
U.S. Const, amend. XI.
Although the text of Eleventh Amendment does not
say so, “it has long been settled that the amendment
applies equally to suits against a state brought in
federal court by citizens of that state.” James, 157
F.3d at 1277 (citing Hans v. Louisiana, 134 U.S. 1,
18-19, 10 S. Ct. 504, 508 (1890)). “The state need not be
formally named as a defendant for the amendment to
apply; [a] state officialt ] sued in [his] official capacity
[is] also protected by the amendment.” Id.
This case does not present any “of the three situ­
ations in which there is a surrender of Eleventh

App.3a
Amendment sovereign immunity.” Id. at 1278 (quota­
tion marks omitted). First, the State of Georgia did not
“waive [ ] its Eleventh Amendment sovereign immunity
and consent[ ] to suit in federal court.” Id. Georgia
has expressly reserved its sovereign “immunity with
respect to actions” that are, like this one, “brought in
[a] court[ ] of the United States.” Ga. Code Ann. § 5021-23(b). Second, Congress did not abrogate Georgia’s
sovereign “immunity when it enacted 42 U.S.C. § 1983.”
Schopler v. Bliss, 903 F.2d 1373, 1379 n.4 (llth Cir.
1990). And third, Clarke did not sue McMurry, “a state
official [,] ... for prospective injunctive relief to end a
continuing violation of federal law.” James, 157 F.3d
at 1278. He sued McMurry for damages. As a result,
Clarke’s claims against McMurry “were, in effect, claims
against the State of [Georgia], and, consequently, the
defense of Eleventh Amendment sovereign immunity”
barred those claims. Id.
AFFIRMED.

App.4a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN
DISTRICT OF GEORGIA
(JULY 17, 2018)
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
ANDREW CLARKE,
Plaintiff,
v.
RUSSELL R. MCMURRY, P.E.,
Commissioner of the Georgia Department of
Transportation,
Defendant.
Civil Action File Number l:18-cv-01507-TCB
Before: Timothy C. BATTEN, SR. United States
District Judge.
This matter comes before the Court on Defendant
Russell McMurry’s motion [4] to dismiss Plaintiff
Andrew Clarke’s complaint and motion [5] to stay
discovery, and Clarke’s request for oral argument
[13, 14].

App.5a
I.

Background

Clarke, proceeding prose, filed this action under
42 U.S.C. § 1983, alleging claims identical to those at
issue in his earlier action, Clarke v. McMurry, No.
l:17-cv-3664-WSD (filed September 20, 2017). In the
earlier action, Judge William S. Duffey granted
Defendant’s motion to dismiss based on Eleventh
Amendment immunity, the statute of limitations, and
failure to state a claim. [4-3].
Defendant has moved to dismiss this action based
on collateral estoppel and for the same reasons that
warranted dismissal of Clarke’s earlier lawsuit.
II. Discussion
To survive a Rule 12(b)(6) motion, a plaintiff
must plead “enough facts to state a claim to relief
that is plausible on its face.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007); see also Chandler
v. Sec’y of Fla. Dep’t of Transp., 695 F.3d 1194, 1199
(llth Cir. 2012). The Supreme Court has explained
this standard as follows:
A claim has facial plausibility when the plaintiff
pleads factual content that allows the court to draw
the reasonable inference that the defendant is liable
for the misconduct alleged. The plausibility standard
is not akin to a “probability requirement,” but it asks
for more than a sheer possibility that a defendant
has acted unlawfully.
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (citation
omitted); see also Resnick v. AvMed, Inc., 693 F.3d
1317, 1324-25 (llth Cir. 2012). Thus, a claim will
survive a motion to dismiss only if the factual allega­
tions in the complaint are "enough to raise a right to

App.6a
relief above the speculative level. . . Twombly, 550
U.S. at 555-56 (citations omitted). “[A] formulaic recita­
tion of the elements of a cause of action will not do.”
Id. at 555 (citation omitted). While all well-pleaded
facts must be accepted as true and construed in the
light most favorable to the plaintiff, Powell v. Thomas,
643 F.3d 1300, 1302 (llth Cir. 2011), the Court need
not accept as true the plaintiffs legal conclusions,
including those couched as factual allegations, Iqbal,
556 U.S. at 678.
“Res judicata comes in two forms: claim preclusion
(traditional ‘res judicata’) and issue preclusion (also
known as ‘collateral estoppel’).” Cmty. State Bank v.
Strong, 651 F.3d 1241, 1263 (llth Cir. 2011). Issue
preclusion or collateral estoppel forecloses the relitiga­
tion of issues that have been previously litigated and
decided. CSX Transp., Inc. v. Bhd. Of Maint. of Way
Emps., 327 F.3d 1309, 1316 (llth Cir. 2003). When the
prior decision was made by a federal court, federal
preclusion principles apply. Id. Under federal law,
the following requirements must be_met before the
doctrine applies:
(l) the issue at stake must be identical to
the one involved in the prior litigation; (2)
the issue must have been actually litigated
in the prior suit; (3) the determination of the
issue in the prior litigation must have been a
critical and necessary part of the judgment
in that action; and (4) the party against whom
the earlier decision is asserted must have
had a full and fair opportunity to litigate
the issue in the earlier proceeding.
Id. at 1317 (quoting I.A. Durbin, 793 F.2d at 1549).
Here, as discussed, the complaints in the two cases

App.7a
are identical. Judge Duffey decided the earlier case
on the merits, which are the same as those at issue in
this case. Therefore, the determination of the merits of
the earlier case clearly was a critical and necessary
part of the judgment. Finally, Clarke had a full and
fair opportunity to litigate the issues in the earlier
lawsuit. Therefore, collateral estoppel is appropriate.
Even if the Court were not able to apply collateral
estoppel, Judge Duffey’s earlier order provides all the
reasons necessary to dismiss this action on the merits.
As the earlier order noted, and as McMurry expresses
in his briefing, there are numerous reasons the Court
could dismiss this action. The Court need not address
all the reasons, however, because McMurry is immune
from suit under the Eleventh Amendment to the U.S.
Constitution.
It appears that Clarke intends to bring both § 1983
and state-law tort claims against McMurry in his official
capacity. However, a § 1983 claim against McMurry
in his official capacity is effectively a claim against
the state because any monetary judgment would be paid
by state funds. See Jackson v. Dep’t of Transp., 16
F.3d 1537, 1577 (llth Cir. 1994). “Absent a legitimate
abrogation of immunity by Congress or a waiver of
immunity in the state being sued, the Eleventh
Amendment is an absolute bar to suit by an individual
against a state or its agencies in federal court.” Gamble
v. Fla. Dep’t ofHealth & Rehabilitative Servs., 779 F.2d
1509, 1511 (llth Cir. 1986). “It is clear that Congress
did not intend to abrogate a state’s [Eleventh [A]mendment immunity in section 1983 damage suits.” Zatler
v. Wainwright, 802 F.2d 397, 400 (llth Cir. 1986).
Further, article 1, section 2, paragraph IX of the
Georgia Constitution expressly reserves its sovereign

App.8a

immunity and, thus, has preserved immunity from tort
liability unless the General Assembly expressly waives
it. Vaughn v. Georgia, No. l:ll-cv-4026-RWS, 2012 WL
2458538, at *3 (N.D. Ga. June 27, 2012). There is no
evidence that any legislation waives Georgia’s sovereign
immunity in this case.
Clarke’s state-law claims are also barred by the
Eleventh Amendment and sovereign immunity. Clarke’s
claims appear to be based on the alleged tortious acts
by a state officer or employee such that they would
be covered by the Georgia Tort Claims Act (“GTCA”),
O.C.G.A. § 50-21-20, et seq. Although the GTCA
provides that the state waives its sovereign immunity
in state court actions, it does not waive immunity in
federal courts. O.C.G.A. § 50-21-23(b) (“The state
waives its sovereign immunity . . . only with respect
to actions brought in the courts of the State of
Georgia. The state does not waive any immunity
with respect to actions brought in the courts of the
United States.”); see also Jude v. Morrison, 534 F.
Supp. 2d 1365, 1373 (N.D. Ga. 2008) C‘[A]n action
against the State of Georgia cannot stand in this
forum because the State of Georgia has not waived
its sovereign immunity through the Georgia Tort
Claims Act for actions brought in federal court.”).
Therefore, Clarke’s state-law tort claims must be dis­
missed.

App.9a

III. Conclusion
For the foregoing reasons, Defendant’s motion [4]
to dismiss is granted and Defendant’s motion [5] to stay
is denied as moot. Clarke’s request for oral argument
[13, 14] is denied. The Clerk is directed to close this
case.
IT IS SO ORDERED this 17th day of July, 2018.
/s/ Timothy C. Batten Sr.
United States District Judge

App.lOa
JUDGMENT OF THE UNITED STATES
DISTRICT COURT FOR THE NORTHERN
DISTRICT OF GEORGIA
(JULY 18, 2018)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
ANDREW CLARKE,
Plaintiff,
v.
RUSSELL R. MCMURRY, P.E.,
Commissioner of the Georgia D.O.T.,
Defendant.
Civil Action File No. l:18-cv-01507-TCB
This action having come before the court,
Honorable Timothy C. Batten, Sr., United States
District Judge, for consideration of Defendant’s Motion
to Dismiss, and the court having GRANTED said
motion, it is
Ordered and Adjudged that the plaintiff take
nothing; that the defendant recover its costs of this
action, and the action be, and the same hereby, is
dismissed.

App.lla

Dated at Atlanta, Georgia, this 17th day of July,
2018.

James N. Hatten
Clerk of Court
By: Is/ Janice Micallef
Deputy Clerk

Supreme court
PRESS

